           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  INDIVIDUAL REPRESENTATIVE PAYEES
         WHO MISUSE BENEFITS

      May 2012     A-13-10-10182




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                SOCIAL SECURITY
MEMORANDUM

Date:      May 4, 2012                                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Individual Representative Payees Who Misuse Benefits (A-13-10-10182)


           OBJECTIVE
           Our objective was to review Agency actions concerning individual representative
           payees who were serving 14 or fewer beneficiaries and who misused benefit payments.

           BACKGROUND
           Some individuals are not able to manage or direct the management of their finances
           because of their youth or mental and/or physical impairment. For such beneficiaries,
           Congress provided for payment through a representative payee who receives and
           manages benefit payments for the beneficiary. 1 The Social Security Administration
           (SSA) selects representative payees for Old-Age, Survivors and Disability Insurance 2
           and/or Supplemental Security Income 3 beneficiaries 4 when representative payments
           would serve the individual’s interests. 5 A representative payee may be an individual or
           an organization.

           According to SSA policy, misuse of benefits occurs when the payee does not use the
           benefits for the beneficiary’s current and foreseeable needs or conserve remaining
           benefits for the beneficiary’s future needs. To protect the beneficiary’s best interests,
           1
               Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii)(I), 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii)(I).
           2
            The Old-Age, Survivors and Disability Insurance program provides retirement and disability benefits to
           qualified individuals and their dependents as well as to survivors of insured workers. Social Security Act
           § 202 et seq., 42 U.S.C. § 402 et seq.
           3
            The Supplemental Security Income program provides payments to individuals who have limited income
           and resources and who are age 65 or older, blind, or disabled. Social Security Act § 1601 et seq.,
           42 U.S.C. § 1381 et seq.
           4
             We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
           Insurance beneficiaries and Supplemental Security Income recipients.
           5
               Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii)(I), 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii)(I).
Page 2 - The Commissioner


the Agency is required to investigate all allegations of misuse, determine the facts, and
make a formal determination of whether misuse occurred. When SSA determines
misuse has occurred, policy states it must refer the violation to the Office of the
Inspector General (OIG) for further investigation.

Under certain circumstances, SSA is required to repay benefits misused by certain
payees. With enactment of the Social Security Protection Act of 2004, 6—regardless of
whether SSA obtains restitution from the payee—SSA is required to certify an amount
equal to misused benefits for repayment to the beneficiary or alternate representative
payee in all cases when

       •   the payee was not an individual, or
       •   the payee was an individual payee serving 15 or more beneficiaries for any
           month when the period of misuse occurred.

When the misuser is an individual representative payee serving 14 or fewer
beneficiaries at the time of misuse, the Social Security Act requires that SSA certify the
misused benefits for payment to the beneficiary or alternate representative payee if
SSA's negligent failure to investigate or monitor the representative payee resulted in the
misuse. 7 Negligent failure to monitor a payee occurs when SSA does not take
appropriate and timely action to deter, detect, or stop misuse of benefits.

To meet our objective, we analyzed an electronic data extract from the Representative
Payee System (RPS). 8 For the period January 1, 2007 to June 10, 2010, the data
extract contained misuse information for individual payees serving 14 or fewer
beneficiaries. We identified 1,561 beneficiaries who had about $7.6 million in payments
recorded (1,576 instances) as misused by 1,368 individual representative payees. 9

In response to our inquiries, the Agency reported its staff erroneously recorded
26 instances of misuse. As a result, we adjusted the number of beneficiaries,
representative payees, and instances of misuse applicable to our audit period. See
Table 1 for details.




6
 Pub. L. No. 108-203 § 101 (2004). See Social Security Act §§ 205(j)(5), 807(i), and 1631 (a)(2)(E), 42,
U.S.C. §§ 405(j)(5), 1007(i) and 1383(a)(2)(E).
7
    Social Security Act §§ 205(j)(5), 807(i), and 1631 (a)(2)(E).
8
    RPS contains data about representative payees and beneficiaries/recipients who have payees.
9
    Two instances of misuse totaling $1,223 were inadvertently omitted.
Page 3 - The Commissioner


                       Table 1: Individual Representative Payee Misuse 10
                               January 1, 2007 to June, 10, 2010 11
                                          Number     Instances
            Type of       Number of          of          of         Benefits             Average
                                      12          13         14
          Beneficiary Beneficiaries      Payees       Misuse        Misused              Misuse
             Child                1,038         898       1,050 $5,420,947                $ 5,163
             Adult                  523         470         526 $2,166,867                $ 4,120
                    15
          Subtotal                1,561      1,368        1,576 $7,587,814
           Recording
             Errors                 (26)       (19)         (26)    ($70,174)
             Total                1,535      1,349        1,550 $7,517,640

For selected payees and instances of misuse, we examined the Agency’s actions and
assessed its compliance with applicable policies and procedures. See Appendices B
and C for our detailed scope and methodology and sampling methodology, respectively.

In October 2011, we became aware of a new Agency system for tracking representative
payee misuse. The Electronic Representative Payee System [eRPS] Misuse System
Version 1.0 allows users to record misuse allegations and track the allegations to final
disposition by providing a checklist to guide Agency staff through the review process.
The checklist includes references to (a) generating notices in applicable SSA systems
and (b) referring instances of misuse to the proper components and recovery
processes. SSA expects the interface with RPS to assist in indentifying other
beneficiaries the payee serves and provide the misuse history if the payee applies to
serve another beneficiary. Furthermore, the system creates reports that summarize
misuse development activities. SSA staff confirmed eRPS had become available and
staff had received training regarding the use of the system by October 17, 2011. On
February 6, 2012, Agency staff informed us that SSA released eRPS Version 1.1 in
January 2012 with additional functionality.




10
     Payees served 14 or fewer beneficiaries when misuse occurred.
11
  Although SSA reported 26 erroneous misuse records to us in our samples, additional erroneously
recorded instances of misuse likely occurred in our population. Therefore, the number of beneficiaries,
individual representative payees, and instances of misuse applicable to our audit period are estimates.
12
     Eleven beneficiaries had payments that were misused more than once during this period.
13
     A total of 138 payees misused benefits more than once during the period.
14
     An instance of misuse is one data entry/one RPS record of representative payee misuse.
15
     Two instances of misuse totaling $ 1,223 were inadvertently omitted.
Page 4 - The Commissioner


RESULTS OF REVIEW
SSA did not always take appropriate actions concerning individual representative
payees who were serving 14 or fewer beneficiaries and who misused benefit payments.
Specifically, the Agency did not always (1) obtain restitution from payees when it could
use benefit adjustment to do so; (2) certify benefits for payment to beneficiaries when
Agency negligence was determined; (3) document negligence decisions; (4) refer
instances of misuse to OIG; (5) make restitution to beneficiaries when misused funds
were collected in installments from payees; (6) follow policy regarding retention of
payees who commit misuse; and (7) record misuse-related data accurately in RPS.

EFFORTS TO OBTAIN RESTITUTION FROM MISUSERS USING BENEFIT
ADJUSTMENT

SSA needs to improve its efforts to obtain restitution from payees who misused benefit
payments. Generally, we found SSA did not use its benefit adjustment debt collection
tool to obtain restitution for beneficiaries whose individual representative payees
misused their Social Security payments. For our audit period, we found SSA did not
adjust benefits—withhold a debt from ongoing benefit payments—for 408 payees to
collect about $2.1 million in misused benefits.

Agency policy states that a payee who misuses benefits is indebted to the beneficiary
and is obligated to make restitution. Further, policy states SSA will take action on the
beneficiary’s behalf to request and obtain restitution. SSA can recover misused benefits
from a representative payee by adjusting a payee’s own Social Security benefits. 16

SSA’s records indicated that as of October 2010, it was collecting debts from
199 payees. Of the 199, the Agency’s records indicated benefits were being adjusted
for 189 payees, about 14 percent of the 1,349 individual representative payees who
misused payments during our audit period. SSA used benefit adjustment to recover
about $958,000 in misused funds. For the remaining 10 payees, SSA used other
arrangements for restitution for 12 instances of misuse.

Of the remaining 1,150 misusers, as of January 2011, 408 payees were receiving their
own benefit payments after the misuse occurred, and SSA could have used benefit
adjustment to recover some of the debt from their benefits. Benefit adjustment could
have collected funds pertaining to about $2.1 million in misused benefits for
491 instances of misuse. SSA used benefit adjustment for about 32 percent of payees
who could have had their Social Security payments reduced to make restitution to
beneficiaries. We believe the Agency should increase its use of benefit adjustment.
See Table 2 for details.



16
  Once misuse of benefits is determined, the misused amount is treated as an overpayment of benefits to
the misuser per Social Security Act §§ 205(j)(7)(A) and 1631(a)(2)(H)(i). Also see Social Security Act §§
204(a)(1)(A), 1147(a), and 1631 (b)(1)(A).
Page 5 - The Commissioner



                         Table 2: Agency Use of Benefit Adjustment
                                    Debt Collection Tool
                                                      Instances
                                          Payees      of Misuse Misused Amounts
      Payees Not Receiving Social           742          832       $ 4,395,625
      Security Benefits 17
      Payees Receiving Social
      Security Benefits
          Benefit Adjustment Used 18        189          215       $   957,750
          Benefit Adjustment Not            408          491       $ 2,112,581
          Used
      Payees with Other                     10            12        $   51,684
      Arrangements for Restitution
      Total for Audit                      1,349        1,550      $ 7,517,640

From the payees without ongoing or pending recoveries, we selected a sample of
50 payees to determine why SSA had not arranged restitution from the payees. 19 The
50 payees committed 57 instances of misuse. On March 4, 2011, we requested SSA to
explain why it had not pursued collection efforts against the misusers. In response to
our inquiry, the Agency reported that 17 were not misuse but were erroneously recorded
as instances of misuse in RPS. In addition, the Agency indicated it could not provide
documentation detailing its collection efforts for 20 instances of misuse. Therefore, we
excluded these 37 instances of misuse from our analysis. We summarize the Agency’s
responses for the remaining 20 instances of misuse involving 18 payees in Table 3.

                         Table 3: Reasons for No Collection Efforts
                                               Instances of         Percent of
             Reason Provided by Agency            Misuse              Total
             Agency Failed to Follow Policy                  14              70
             Civil Monetary Penalty Pursued                   3              15
                   20
             Other                                            3              15
             Total                                           20             100




17
     Payees were not receiving their own Social Security benefits as of January 2011.
18
     Benefit adjustment indicated in SSA records as of October 2010.
19
  When payees were selected, our sampling frame consisted of 1,169 payees. However, the Agency
subsequently reported its staff erroneously recorded 26 instances of misuse by 19 payees. Of these,
15 payees committing 17 instances of misuse were included in our sample. We use the adjusted number
of payees (1,150) to report the results of our review.
20
  For one instance of misuse, SSA recovered the overpayment; for a second instance of misuse, SSA is
pursuing collection; and for the third instance of misuse, the Agency waived the overpayment.
Page 6 - The Commissioner


After our inquiry, the Agency began efforts to collect some misused payments from
payees included in our sample. For example, in one instance, the payee had misused a
child’s benefits totaling over $13,000 from April 2006 through January 2008. In
March 2011, we inquired why misused benefits were not being collected. In April 2011,
SSA staff responded that the Agency planned to start efforts to collect these misused
funds. As of April 2011, SSA had started collection efforts for 8 of the 20 instances of
misuse in our sample. These benefits misused in these eight instances totaled about
$28,000.

On October 28, 2011, we discussed with staff from the Offices of the Deputy
Commissioners for Operations (DCO) and Retirement and Disability Policy (DCRDP)
why the Agency had not used benefit adjustment to obtain restitution from misusers.
Staff explained that recording misuse is not automated. Agency staff must manually
track misuse, collection, and repayment, and sometimes certain aspects of misuse
cases may be overlooked.

We reviewed the Agency’s eRPS video-on-demand and training manual for Version 1.0.
This Version did not include a feature to automatically use benefit adjustment for
payees receiving their own Social Security benefits after the misuse occurs.

However, in February 2012, we verified eRPS Version 1.1 included a screen requiring
that Agency staff indicate whether the misuser is receiving “active entitlements.” This
will assist Agency staff in identifying those instances where misused benefits may be
recoverable on behalf of beneficiaries through SSA’s benefit adjustment.

SSA needs to improve its efforts to obtain restitution for beneficiaries when individual
representative payees serving 14 or fewer beneficiaries misuse benefits. SSA could
pursue collection efforts by adjusting misusers’ Social Security benefits. SSA should
adjust payments made to the 408 payees we identified as receiving their own Social
Security benefits. This would enable the Agency to recover about $2.1 million of
additional misused benefits for beneficiaries.

BENEFICIARY REIMBURSEMENT WHEN THE AGENCY ACKNOWLEDGED
NEGLIGENCE

SSA did not always pay beneficiaries when it determined it was negligent regarding its
actions involving individual representative payees serving 14 or fewer beneficiaries.
SSA is required to certify for payment to the beneficiary or alternate representative
payee where misused benefits resulted from SSA’s negligent failure to investigate or
monitor a representative payee. 21 SSA must also make a good faith effort to obtain
restitution from the terminated representative payee who misused the benefit. 22 Of the

21
  Social Security Act §§ 205(j)(5), 807(i), and 1631 (a)(2)(E), 42, U.S.C. §§ 405(j)(5), 1007(i) and
1383(a)(2)(E).
22
     Id.
Page 7 - The Commissioner


19 payees 23 who misused funds where SSA acknowledged negligence, the Agency
could not provide information to confirm reimbursement to all the affected beneficiaries.
For the period January 1, 2007 to June 10, 2010, we identified 19 payees who
committed misuse, and SSA concluded its failure to investigate or monitor the
representative payees resulted in the misuse. For the 19 payees, we asked SSA to
provide information regarding repayment of misused funds to the beneficiaries involved.
For two payees, the Agency reported its staff recorded three instances of misuse in
RPS in error. For three additional payees, SSA staff reported three negligence
determinations were recorded in RPS erroneously, and the Agency was, in fact, not
negligent for the occurrence of misuse. Additionally, for one payee, the Agency did not
provide data to confirm whether about $30 in misused funds was repaid to the
beneficiary. For the remaining 13 payees, SSA
     •   provided adequate documentation to confirm beneficiaries served by 9 payees
         were repaid misused benefits totaling about $77,000 and
     •   did not repay $30,934 to beneficiaries for misuse committed by 4 payees.

On October 28, 2011, we discussed with DCO and DCRDP staff why not all
beneficiaries were paid. Agency staff could not provide an explanation. We provided
the Agency information about the four beneficiaries not repaid in our sample.

Agency policy, revised January 27, 2012, directs staff to reissue misused benefits when
SSA determines itself negligent for misuse by payees serving 14 or fewer beneficiaries.
The Agency also included detailed instructions on reissuing benefits in these situations.

SUPPORT FOR THE AGENCY’S DECISIONS ON NEGLIGENCE

After establishing misuse of benefits, Agency policy states staff should prepare an
individual “negligence determination” on Form SSA-553, Special Determination, for
each affected beneficiary. In this document, staff is to include such information as
(a) state whether SSA was negligent in investigating or monitoring the payee,
(b) summarize the rationale for negligence decision, and (c) conclude whether SSA will
repay the beneficiary. When we performed our review, SSA policy did not require that a
claims representative or higher-level staff subsequently review and approve the
negligence decision. Rather, Agency policy directed the individual who made the
negligence decision to indicate his/her title in the “Approved by” block. For the period
January 1, 2007 to June 10, 2010, SSA acknowledged it was negligent in less than
2 percent of the misuse instances we identified. See Table 4 for details.




23
  The 19 individual representative payees misused funds of 20 beneficiaries involving 21 instances of
misuse.
Page 8 - The Commissioner


             Table 4: SSA Determinations of Negligence for Misused Benefits
                             January 1, 2007 to June 10, 2010
            SSA       Instances of    Number of        Amount of
          Negligent      Misuse      Beneficiaries       Misuse      Percent
             No               1,535           1,521      $7,409,748        98.6
             Yes                 15              14        $107,892          1.4
            Total             1,550           1,535      $7,517,640         100

To determine whether SSA prepared the negligent determination on Form SSA-553 in
accordance with Agency policy, we selected for review 50 beneficiaries who had
benefits misused, but Agency staff determined SSA was not negligent regarding the
misuse. 24 We requested the Agency provide the applicable Forms SSA-553 and
documentation used to determine negligence. In response to our inquiry, the Agency
reported five instances of misuse for five beneficiaries had been recorded erroneously
in RPS. The remaining 45 instances involved payee misuse of about $250,500.

For 33 (73 percent) of the 45 beneficiaries, SSA did not provide the requested Forms
SSA-553. We reviewed documentation pertaining to the negligence decisions for the
misuse involving these beneficiaries. For one instance, the payee made full restitution,
which eliminated the need for Agency staff to prepare a negligence determination. The
remaining documents did not specify a justification for the negligence decisions
recorded in RPS. For the 12 remaining beneficiaries, the Agency was able to provide
the Forms SSA-553. We found these forms complied with policy. 25

Without justification for the decisions, we question the Agency’s assessments of
negligence. When improper decisions are made, SSA’s reimbursement of misused
payments is impacted. When SSA determines it is negligent, the Agency is required to
certify benefits for repayment. However, when negligence did not occur, SSA is
directed to obtain restitution from misusers then reimburse beneficiaries.

We believe eRPS will assist SSA staff to better document negligence decisions. ERPS
has a checklist feature that contains the negligent determination document. The
checklist should remind staff to prepare the negligence decision.

In almost 99 percent of the cases, SSA found itself not negligent. The negligence
decision determines whether SSA repays the beneficiary from Agency funds or waits
until the misuser repays the funds to reissue benefits. The negligence determination,
like the misuse decision, is a critical decision that affects the beneficiary’s repayment

24
  When beneficiaries were selected, our sampling frame consisted of 1,561 beneficiaries. We then
excluded the 20 beneficiaries for whom SSA acknowledged it was negligent regarding the misuse.
However, the Agency subsequently reported its staff erroneously recorded a total of 26 instances of
misuse involving 26 beneficiaries. We use the adjusted number of beneficiaries (1,535) to report the
results of our review.
25
   For two instances, the information required on Form SSA-553 was present in SSA’s electronic records,
although not recorded on an actual Form SSA-553. We counted these instances as being in compliance
with policy.
Page 9 - The Commissioner


and should be prepared and approved by two different Agency employees. A January
2012 policy update accompanying the release of eRPS Version 1.1 requires additional
review and approval from a claims representative or higher-level staff for all negligence
determinations.

REFERRING MISUSE INSTANCES TO THE OIG

SSA was still not reporting all payee misuse cases to OIG. The Agency referred only
about 484 (31 percent) of the 1,550 instances of misuse we identified during our audit.
See Table 5 for details.

               Table 5: Summary of Individual Representative Payee Misuse
                                Cases Referred to OIG
                   Referral      Instances of Misuse       Dollar Amount
                     Yes                           484           $ 3,545,314
                      No                         1,066             3,972,326
                         26
                   Total                         1,550           $ 7,517,640

When SSA makes a misuse determination, it should refer the suspected violation to
OIG for further review and investigation. Agency policy states that staff should use the
electronic version of Form SSA-8551-U (e8551), Referral of Potential Violation, to refer
all instances of misuse to the OIG. Failure to refer misuse cases to OIG precludes
potential development of criminal, civil, and administrative investigations that could yield
court-ordered restitution, fines/penalties, and administrative action to prevent losses,
achieve savings, or recover fraud losses.

In a June 2002 report, 27 Analysis of Information Concerning Representative Payee
Misuse of Beneficiaries’ Payments, we found that SSA was not always referring
representative payees who misused benefit payments to the OIG. We recommended
that the Agency follow policy in referring all future instances of misuse to the OIG. In
January 2007, we issued a follow-up report 28 that stated the Agency was still not
referring all instances of misuse to the OIG.

On October 28, 2011, we discussed with DCO and DCRDP staff reasons why many
misuse cases were not referred to OIG. Agency staff responded that before eRPS was
implemented, they were required to manually complete the electronic fraud referral
Form e8551 outside RPS. However, eRPS is intended to automatically generate an

26
  For our audit period, we initially identified 1,576 instances of misuse. However, SSA reported
26 instances of misuse involving 26 beneficiaries were erroneously recorded in RPS. We adjusted the
misuse information for our audit period accordingly.
27
  SSA OIG, Analysis of Information Concerning Representative Payee Misuse of Beneficiaries’
Payments (A-13-01-11004), June 2002, pp.4 and 5.
28
  SSA OIG, Follow-up: Analysis of Information Concerning Representative Payee Misuse of
Beneficiaries’ Payments (A-13-06-26097), January 2007, pp.3-4.
Page 10 - The Commissioner


e8551 while the misuse information was entered into the system. Our review of
information related to the system found a feature on the eRPS checklist that reminds
Agency staff to send the e8551 to OIG. This feature may improve the Agency’s
compliance with the policy to refer all misuse determinations to OIG for review.
BENEFICIARY RESTITUTION WHEN MISUSED FUNDS ARE COLLECTED IN
INSTALLMENTS FROM THE PAYEE

SSA lacked policy to ensure funds collected in installments from payee misusers as
restitution were timely paid to beneficiaries or their current payee. At the time of our
review, policy stated the Agency should repay restitution obtained from misusers to
beneficiaries or their current payee. However, we were unable to locate timeframes in
the policy for when the Agency should make restitution to the beneficiaries when it
collects misused funds from payees. During an October 2011 meeting, DCRDP staff
confirmed there was no such information in the policy.

To determine whether SSA repaid benefits collected as restitution from payees who
misused payments, we selected for review 33 of the 226 instances of misuse identified
as involving recovery actions. The Agency did not provide responses for four of the
instances selected for review and indicated that one instance was recorded in error and
was not misuse.

Of the 28 remaining instances of misuse, we found 10 had collection actions pending,
but SSA had not collected any funds as of June 2011. Further, the Agency obtained
restitution from payee misusers and repaid beneficiaries about $8,500 for four instances
of misuse. The misuse benefit payments totaled about $12,000. For one instance, we
are following up with the Agency on their response. For the remaining 13 instances
involving about $115,000, the Agency obtained restitution of about $34,000 from the
misusers. However, SSA had only repaid about $4,400 of these funds to the
beneficiaries as of January 2012.

In one instance, the misuse took place between June 2003 and July 2007 and totaled
about $19,000. In response to our inquiry, SSA staff reported, as of June 6, 2011, the
Agency had received $12,736 in restitution from the payee. However, as of
January 2012, SSA had not repaid any of the recovered benefits to the beneficiary. In
another instance, the misuse, totaling about $3,700, occurred between October 2007
and March 2008. The Agency had obtained restitution of $150 as of June 6, 2011 but
had not paid the recovered benefits to the beneficiary because the misuser was still
serving as the beneficiary’s payee. We asked SSA why it allowed this misuser to
continue as the representative payee for this beneficiary, but as of November 2011, we
had not received a response.

Since repayment of misused benefits often occurs through the monthly benefit
adjustment, it may take years for payees to repay the misused funds in full. We believe
SSA should return these funds to the beneficiaries as the Agency collects them from the
misuser payee.
Page 11 - The Commissioner


SSA amended its policy in January 2012 to state the Agency must start repaying
recovered misused funds to the beneficiary immediately upon receipt. If immediate
payment is not possible, staff should document the reason in eRPS, and pay the funds
as soon as possible, but no later than 60 days.
PAYEES WHO MISUSED FUNDS CONTINUED TO SERVE AS PAYEES

According to SSA policy, (a) payees who are allowed to continue serving must have
repaid or have plans to repay the misused benefits, and (b) staff are to document in
RPS how decisions for allowing payees to continue to serve were reached. 29 Of the
1,349 individual representative payees identified for misuse of benefits for our audit
period, as of March 2011, Agency records indicated 645 of the payees continued
serving as payees (see Table 6). Of these 645 payees, SSA’s records indicated
203 were serving new and other beneficiaries.

                  Table 6: Individual Representative Payees Who Misused
                Benefits and Continued Serving as Payees as of March 2011
                                           Number of
                Type of Beneficiary       Beneficiaries         Payees
                            30
                     Same                     492                442
                                 31
                 New and Other                345                203
                       Total                  837                645

Of the 203 payees, we selected 30 payees for further review to determine whether SSA
complied with its policies for allowing the payees to continue serving as payees after
misuse of benefits. In November 2011, we reviewed information recorded in RPS for
the 30 payees. Of the 30, we found information pertaining to the retention of 1 payee.
The following was recorded in RPS, “In spite of prior problems with . . . I don’t think she
ever intended to misuse SSI money. She is very slow and does try to do what is
right . . . .”

On November 4, 2011, we requested SSA staff explain why the 30 payees were
retained. In February 2012, SSA responded that it did not plan to respond to our
request to review these sample cases.

In a June 2002 report, 32 Analysis of Information Concerning Representative Payee
Misuse of Beneficiaries’ Payments, we found that SSA was allowing representative
payees who misused benefit payments to continue to serve as payees. We

29
     SSA, POMS, GN 00502.134(B)(2), (March 27, 2012)
30
     Payees continued to serve at least one beneficiary who had their benefits misused by the payees.
31
  New and other includes payees who were allowed to serve either (a) at least one new beneficiary after
the misuse or (b) at least one beneficiary previously served who did not have a misuse determination.
32
  SSA OIG, Analysis of Information Concerning Representative Payee Misuse of Beneficiaries’
Payments (A-13-01-11004), June 2002, p. 5.
Page 12 - The Commissioner


recommended that the Agency follow policy in rarely retaining misusers as payees and
periodically assessing the continued suitability of representative payees that previously
misused benefits. 33 In January 2007, we issued a follow-up report 34 that found the
Agency was still retaining payees who committed misuse and could not provide
documentation detailing what follow-up actions were taken to assess the continued
suitability of these payees.

INTEGRITY OF MISUSE DATA

SSA needs to improve the integrity of the misuse-related data recorded in RPS. During
our review of selected instances of misuse, SSA frequently reported that misuse data
within RPS was not accurate. During this review, we examined 191 instances of
misuse. 35 Of the 191, 29 (about 15 percent) had data integrity issues—26 in recording
the misuse in RPS and 3 regarding the negligence decisions.

Agency policy requires investigation and development of misuse allegations and the
preparation of a formal misuse determination before recording information about the
misuse and the misuser in RPS. SSA staff explained the Agency erroneously recorded
the misuse in RPS for 26 instances of misuse. We believe staff recorded the potential
misuse in RPS before completing the formal misuse determination.

For the remaining three instances, RPS indicated the Agency reported it was negligent
regarding its actions involving the beneficiary. However, Agency staff subsequently
reported the data entry was an error. Rather, SSA determined it was not negligent in
these instances.

If the Agency erroneously records misuse information in RPS, any management
analysis of the magnitude of misuse or related conclusions may be inaccurate. We
believe the enhanced features of eRPS will improve the integrity of misuse data.

CONCLUSION AND RECOMMENDATIONS
SSA did not always take certain actions concerning individual representative payees
who were serving 14 or fewer beneficiaries and who misused benefit payments.
Specifically, the Agency did not always obtain restitution from payees when it could use
benefit adjustment; certify benefits for payment to beneficiaries when Agency
negligence was determined; document negligence decisions; refer instances of misuse
to OIG; make restitution to beneficiaries when misused funds were collected in
installments from payees; follow policy regarding retention of payees who commit
misuse; and record misuse-related data accurately in RPS.

33
     Id. at p. 9.
34
  SSA OIG, Follow-up: Analysis of Information Concerning Representative Payee Misuse of
Beneficiaries’ Payments (A-13-06-26097), January 2007, pp. 4-6.
35
     See Appendix C, Sampling Methodology.
Page 13 - The Commissioner


SSA had taken actions intended to improve its oversight and management of these
payees. In October 2011 and January 2012, SSA released new versions of its eRPS
Misuse System and revised its policies. However, SSA needs to take additional actions
to improve its oversight and management of individual representative payees serving
14 or fewer beneficiaries who misused benefit payments. Therefore, we recommend
SSA:

1. Use, when appropriate, benefit adjustment to obtain restitution from the 408 payees
   we identified to recover about $2.1 million in misused funds.

2. Remind staff to use the benefit adjustment debt collection tool when possible to
   obtain restitution for beneficiaries who had individual representative payees misuse
   their benefits.

3. Repay the four beneficiaries we identified who Agency negligence was determined
   concerning the misuse, but the beneficiaries were not paid.

4. Remind staff to comply with SSA policy and procedures to repay beneficiaries if
   Agency negligence is determined when individual representative payees misuse
   benefits.

5. Repay the 13 beneficiaries identified in our audit for which the Agency has obtained
   restitution from the misusers, but has not repaid these funds to the beneficiaries.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the Agency’s comments.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
DCO           Deputy Commissioner for Operations
DCRDP         Deputy Commissioner for Retirement and Disability Policy
eRPS          Electronic Representative Payee System
OIG           Office of the Inspector General
Pub. L. No.   Public Law Number
RPS           Representative Payee System
SSA           Social Security Administration
U.S.C.        United States Code
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable laws, regulations, and Social Security Administration (SSA)
    policies and procedures regarding misuse of funds by representative payees.

   Reviewed prior Office of the Inspector General (OIG) reports relevant to our audit
    objective.

   Obtained and analyzed an electronic data extract from the Representative Payee
    System (RPS). The data extract included information about misuse committed by
    individual representative payees who served 14 or fewer beneficiaries when the
    misuse occurred. The misuse occurred between January 1, 2007 and
    June 10, 2010.

   Performed demographic analysis to search for trends in the data.

   Determined whether (a) misused payments were collected and returned to
    beneficiaries according to SSA policies and procedures; (b) information was
    adequate to support SSA’s decisions about Agency negligence regarding payee
    misuse; (c) instances of misuse identified were referred, as required, to OIG for
    criminal prosecution or civil monetary penalty; and (d) data recorded in RPS were
    accurate.

   Selected and reviewed samples of payees, beneficiaries, and instances of misuse.
    See Appendix C for our sampling methodology.

We performed our review in Baltimore, Maryland, from February 2011 to January 2012.
The principle entity audited was the Office of the Deputy Commissioner for Operations.
We tested the data obtained for our review and determined them to be sufficiently
reliable to meet our objective. Although we found and reported certain data integrity
issues, we were able to use the data for its intended purpose. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.
                                                                          Appendix C

Sampling Methodology
We obtained and analyzed an electronic data extract from the Social Security
Administration’s (SSA) Representative Payee System. The data extract included
information about benefit misuse committed by individual representative payees
who served 14 or fewer beneficiaries when the misuse occurred. Misuse occurred
between January 1, 2007 and June 10, 2010. For this period, we identified a population
of 1,368 payees who misused about $7.6 million in benefits of 1,561 beneficiaries.
These payees committed 1,576 1 instances of misuse. Based on this population, we
selected certain payees and instances of misuse to assess SSA’s actions concerning
individual representative payees serving 14 or fewer beneficiaries who misused benefit
payments. In response to our subsequent inquiries, SSA staff reported that employees
erroneously recorded 26 instances of misuse. As a result, we adjusted the number of
payees, beneficiaries, and instances of misuse applicable to our audit period. For our
review, we used four samples.

Sample 1

To determine why SSA had not arranged restitution from all payees, we randomly
selected and reviewed 50 individual representative payees who committed 57 instances
of misuse. Our sampling frame consisted of 1,169 representative payees whom SSA’s
records indicated had committed misuse and had not repaid the misused benefits as of
October 2010.

Sample 2

To determine whether SSA maintained sufficient and reliable documentation to support
its decisions about negligence determinations, we randomly selected for examination a
sample of 50 beneficiaries who had their benefits misused. Our sampling frame
consisted of 1,541 beneficiaries who SSA’s records indicated SSA was not negligent for
the occurrence of misuse.




1
    Two instances of misuse totaling $1,223 were inadvertently omitted.


                                                     C-1
Sample 3

To determine whether SSA repaid benefits collected as restitution from payees who
misused payments, we selected for review a sample of 33 instances of misuse. Our
sampling frame consisted of 226 instances of misuse for which Agency records
indicated repayment was occurring. The 226 instances were grouped based on (1) type
of benefit payment and (2) beneficiaries’ ZIP codes. This resulted in the random
selection of two instances of misuse for each of the Agency’s 8 program service centers
and 10 regional offices. Two program service centers and one regional office each had
only one instance of misuse during our sample period. As a result, we selected and
reviewed 33 instances of misuse.

Sample 4

To determine why payees who misused funds were allowed to continue to serve, we
randomly selected and reviewed 30 payees. Our sampling frame consisted of
203 payees for whom Agency records indicated SSA had retained them to serve as
payees and they were serving new and other beneficiaries.




                                         C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      March 26, 2012                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Individual Representative Payees Who Misuse
           Benefits” (A-13-10-10182)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas at (410) 966-7284.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“INDIVIDUAL REPRESENTATIVE PAYEES WHO MISUSE BENEFITS”
(A-13-10-10182)

Recommendation 1

Use, when appropriate, benefit offset to obtain restitution from the 408 payees we identified to
recover about $2.1 million in misused funds.

Response

We agree.

Recommendation 2

Remind staff to use the benefit offset debt collection tool when possible to obtain restitution for
beneficiaries who had individual representative payees misuse their benefits.

Response

We agree.

Recommendation 3

Repay the four beneficiaries we identified who Agency negligence was determined concerning
the misuse, but the beneficiaries were not paid.

Response

We agree.

Recommendation 4

Remind staff to comply with SSA policy and procedures to repay beneficiaries if Agency
negligence is determined when individual representative payees misuse benefits.

Response

We agree.

Recommendation 5

Repay the 13 beneficiaries identified in our audit for which the Agency has obtained restitution
from the misusers, but has not repaid these funds to the beneficiaries.

Response

We agree.
                                                D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Office of Audit, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Gregory Trenchard, Auditor

   Upeksha van der Merwe, Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-13-10-10182.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
